Oversight Review         October 31, 2006

  Quality Control Review of the
  Defense Finance and Accounting Service
  Office of Internal Review
  (Report No. D-2007-6-003)
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Office of Assistant Inspector General for Audit Policy and Oversight at (703)
  604-8760 or fax (703) 604-9808.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact the Office of Assistant
  Inspector General for Audit Policy and Oversight at (703) 604-8760 (DSN
  664-8760) or fax (703) 604-9808. Ideas and requests can also be mailed to:

                                     OAIG-APO
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 1016)
                             Arlington, VA 22202-4704




Acronyms
CPE                   Continuing Professional Education
DFAS                  Defense Finance and Accounting Service
GAS                   Government Auditing Standards
OIR                   Office of Internal Review
PCIE                  President’s Council on Integrity and Efficiency
                             INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                            400 ARMY NAVY DRIVE
                       ARLINGTON, VIRGINIA 22202-4704




                                                                        October 3 1,2006
MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE, OFFICE OF INTERNAL REVIEW
SUBJECT: Quality Control Review of the Defense Finance and Accounting Service
         Office of Internal Review (Report No. D-2007-6-003)

        We are providing this report for your information and use. We have reviewed the
Defense Finance and Accounting Service (DFAS) Office of Internal Review (OIR)
system of quality control for the fiscal year ended September 30,2005. In our opinion,
the DFAS OIR system of quality control for audits and attestation engagements
performed during the fiscal year ended September 30,2005, was designed in accordance
with quality standards established by Government Auditing Standards. Further, the
internal quality control system was operating effectively to provide reasonable assurance
that DFAS OIR personnel were following established policies, procedures, and
applicable auditing standards. Accordingly, we are issuing an unmodified opinion on the
DFAS OIR system of quality control used on audits and attestation engagements for the
review period ended September 30,2005.
       The Government Auditing Standards (GAS) require that an audit organization
performing audits or attestation engagements, or both, in accordance with GAS have an
appropriate internal quality control system in place and undergo an external quality
control review at least once every 3 years by reviewers independent of the audit
organization being reviewed. An audit organization's quality control policies and
procedures should be appropriately comprehensive and suitably designed to provide
reasonable assurance that they meet the objectives of quality control. We tested the
DFAS OIR system of quality control to the extent we considered appropriate.
       Appendix A contains comments, observations, and recommendations where
DFAS OIR can improve its quality control program related to auditing and attestation
engagement practices. Appendix B contains a summary of the results of our survey of
OIR staff. Appendix C contains the scope and methodology of the review.
        The Director of DFAS OIR provided comments to the draft report and described
actions taken or planned that satisfy the intent of the report recommendations. Therefore,
no further comments are required. See Appendix E for the full text of the comments.
        We wish to express our thanks to you and your staff for your cooperation and
professionalism. Please contact Mr. Robert L. Kienitz at (703) 604-8754 or
Ms. Carolyn R. Davis at (703) 604-8877 if you have any questions. See Appendix D for
the report distribution.




                                        Patricia A. ~ r a n n i n
                                                             '


                                        Assistant Inspector General
                                         for Audit Policy and Oversight
Appendix A. Comments, Observations, and
            Recommendations
We are issuing an unmodified opinion on this quality control review because the
concerns we identified during our review were not cumulatively significant to the
findings, conclusions, or recommendations in the DFAS OIR reports reviewed. Also, the
DFAS OIR demonstrated that it implemented internal procedures for monitoring its
ongoing compliance with quality control policies and procedures. Specifically, the
DFAS OIR performed an internal quality assurance review from February 2004 through
March 2005 in which a team of staff auditors reviewed 24 projects completed by five1 of
the six site offices. Further, it plans to conduct another internal quality assurance review
in FY 2007. The OIR wants to take corrective actions on any recommendations
contained within this report, then conduct an internal quality assurance review to confirm
corrective actions and evaluate overall compliance with DFAS OIR policies and
procedures.

Although the concerns we identified did not affect our opinion, we found that the
DFAS OIR could improve the quality control program and guidance for audits and
attestation engagements related to the areas of Independence, Competence, Planning,
Evidence and Documentation, Reporting, and Quality Control and Assurance.
Implementing the recommendations identified below would improve the quality control
system and help maintain an unmodified opinion.

Independence. GAS 3.03 states that audit organizations and individual auditors “should
be free both in fact and appearance from personal, external, and organizational
impairments to independence.” The standard includes those individuals who review the
work or the report, and all others within the audit organization who can directly influence
the outcome of the audit. The DFAS OIR Policy and Procedures Manual requires that
the site manager confirm that individuals who are part of the audit team, including
themselves, team leaders, staff auditors, staff with specialized skills, contractors, and
subject matter experts, are free of impairments to their independence. The manual also
requires that all assigned team members sign and document a Statement of Independence.
The Statement of Independence form contains examples of impairments to independence
that alert audit team members to situations that may cause them to limit their inquiries,
disclosures, or findings, or deter them from making independent and objective
judgments. The Statement of Independence form asks the team members to certify
whether actual or potential impairments exist and to certify that they will notify
appropriate officials if they later become aware of an impairment.

The audit teams for the six projects reviewed generally met the requirements of GAS for
determining and documenting staff independence. However, we noted instances in which
DFAS OIR could strengthen its independence documentation practices. For example,
one project file did not contain an independence statement for the site manager and
another did not contain either an organizational or an individual independence statement

1
    The review excluded the Cleveland, Ohio site office because staff from that office made up most of the
    review team. The review report stated that the next internal quality assurance review would cover the
    Cleveland office’s working papers.



                                                       3
for the contractor. For two projects, we noted an independence statement that did not
show a mark to indicate the type of supervisor certification and an electronic signature by
the next level supervisor.

Competence. GAS 3.42 states that the staff assigned to perform the audit or attestation
engagement should collectively possess the technical knowledge, skills, and experience
necessary to be competent for the tasks required. GAS 3.45 requires that auditors
maintain their professional competence through Continuing Professional
Education (CPE). Every 2 years, auditors should complete at least 80 hours of CPE in
subjects and topics that directly enhance the auditors’ professional proficiency to perform
audits. At least 24 of the 80 CPE hours should be in Government-related topics and
subjects. The DFAS OIR Policy and Procedures Manual requires that site managers form
audit teams with staff members who collectively possess professional proficiency for the
tasks required, including compliance with GAS CPE requirements, before work begins.
The manual states that the OIR is responsible for maintaining documentation of CPE
programs and activities completed by its staff. Staff members are responsible for
maintaining evidence of their CPE credits in the form of training certificates or other
evidence of course presentation and participation.

DFAS OIR staff who contributed to the six projects that we reviewed collectively
possessed the technical knowledge, skills, and experience for the tasks required and
maintained their professional competence through continuing professional education.
However, one staff member was short six hours of meeting the 80-hour CPE requirement.
In addition, we noted instances in which DFAS OIR could strengthen its CPE
documentation practices. The DFAS OIR summary schedule of CPE hours earned by its
staff for the 2004-05 measurement period contained errors. For example, it showed
training that staff did not actually attend and hours that did not agree with certificates of
training or other evidence of CPEs earned. The summary schedule also did not identify
hours earned towards the 24-hour CPE requirement to take training in each 2-year period
in Government-related topics and subjects.

Planning. GAS 6.04a and 7.02 state that work is to be adequately planned, and
GAS 6.23 and 7.07 indicate that planning should be documented. GAS 6.07 states that,
during the planning stages of an attestation engagement, auditors should communicate
the nature, timing, and extent of testing and reporting, including the level of assurance
provided and any associated restrictions on reporting to reduce the risk that the needs or
expectations of the parties involved may be misinterpreted. Auditors should use their
professional judgment to determine the form and content of the communication, although
the GAS prefer written communication.

The six projects reviewed generally met the planning requirements of the GAS field work
standards. However, we noted one instance in which DFAS OIR could improve the way
it documents planning. Although the attestation project file contained an e-mail
indicating that the team leader discussed the agreed-upon procedures with an official of
the DFAS accounting directorate, it did not contain documentation of auditor
communications concerning the level of assurance provided and any associated
restriction on reporting. An engagement letter or an e-mail documenting the auditor’s
understanding with the client concerning the auditor services to be provided, assurances,
and reporting restrictions would help the parties involved to fully understand the nature,
timing, and extent of testing and reporting needed to meet expectations.



                                             4
In March 2006, DFAS OIR issued Chapter 1700, “Attestation Engagements,” to the
DFAS OIR Policy and Procedures Manual. It indicates that the staff should document
agreed-upon procedures they will use with the individuals who requested the review and
the officials who are responsible for the area being reviewed. Further, the staff may use
an engagement letter to the parties involved as documentation of these procedures.

Evidence and Documentation. Audit and attest documentation serves as the principal
support for the auditors’ report. GAS 6.22 and 7.66 require that auditors prepare and
maintain audit and attest documentation that supports findings, conclusions, and
recommendations before auditors issue their report. GAS 6.24 and 7.68 state that audit
and attest documentation should be appropriately detailed to provide a clear
understanding of the work performed, the evidence obtained and its source, and the
conclusions reached. Further, documentation should be appropriately organized to
provide a clear link to the findings, conclusions, and recommendations contained in the
auditors’ report.

The DFAS OIR Policy and Procedures Manual includes guidelines that working papers
are to be:

       • sufficiently detailed for an experienced auditor to understand what work was
         performed to support the findings, conclusions, and recommendations;

       • legible and neatly prepared;

       • restricted to matters relevant to the assignment objectives; and

       • complete and accurate.

Working papers should also document:

       • the purpose, source, scope, and conclusion of work performed;

       • include cross-indexes to supporting documentation; and

       • show that persons other than the preparer verified the mathematical
         computations contained within.

DFAS OIR working papers generally contained sufficient, competent, and relevant
evidence to support the findings, conclusions, and recommendations in the six reports
reviewed. However, we noted instances in which DFAS OIR could strengthen its
documentation practices. For example, we noted spreadsheets that did not describe the
work performed, state a purpose, or state whether the source of the data was a computer-
based system, a third party, an auditee, or an auditor. Also, we found individual working
papers with:

       • insufficient detail about the kinds and sources of evidence presented;

       • no information presented in one or more of the purpose, scope/procedure,
         source, and conclusion fields;




                                            5
       • missing, incorrect, or insufficiently detailed cross-references needed to link the
         narrative within the working paper to the source of the information; and

       • extraneous, repetitive, disorganized, and unrelated information presented,
         which caused the link between the work performed and conclusions reached to
         be less clear.

Also, one project file did not contain sufficient documentation of action plan
coordination between the OIR and management and management’s agreement with the
Action Plan identified in the report.

Reporting. GAS 8.45 states that “... evidence included in audit reports should
demonstrate the correctness and reasonableness of the matters reported ...” GAS
provides the following best practice as a means to help ensure compliance with this
standard.

       One way to help ensure the audit report is accurate is to use a quality control process
       such as referencing ... in which an experienced auditor who is independent of the audit
       verifies that statements of fact, figures, and dates are correctly reported, that findings are
       adequately supported by the audit documentation, and that the conclusions and
       recommendations flow logically from the support.

The DFAS OIR Policy and Procedures Manual, Chapter 1310, “Reviewing and
Commenting on the Report,” and Chapter 1330, “Independent Referencing,” establish
standard processes for reviewing DFAS OIR reports to ensure quality and adherence to
applicable standards. Both chapters require that report reviewers confirm that report
content and presentation comply with GAS and OIR policies and procedures.

The six reports reviewed generally met the form, contents, quality elements, and issuance
and distribution requirements of the GAS reporting standards. However, we noted
instances in which DFAS OIR could strengthen its report review practices. Three reports
passed supervisory review and independent report referencing review although we found
the following exceptions.

       • One report did not include a statement that the audit was made in accordance
         with GAS.

       • One report referenced summary working papers that did not include adequate
         cross-referencing to supporting source information.

       • Two reports referenced spreadsheets that did not describe the work performed
         or indicate a purpose or the source of its data.

       • Three reports referenced working papers that, on their own, either did not
         support or only partially supported the information presented.

       • Three reports presented information concerning an element of a finding (e.g.,
         condition or cause) that was not referenced to supporting evidence in the
         project documentation.




                                                     6
During our review, we resolved most of the referencing issues through research of
additional working papers in the project files. As a result, we determined that the
referencing issues did not have a material effect on the overall validity of the three
reports. However, we did identify report statements for which working papers did not
provide convincing support for the matters reported. Examples of our issues with the
quality of support for the three reports follows.

   •   It was difficult to retrace the auditors’ logic and conclusions to support two cause
       statements because the auditors did not integrate specific references to supporting
       source information within the narrative of the working papers.

   •   Testimony from another audit organization used as support for a cause statement
       was poorly documented in the working papers and the working papers did not
       demonstrate that the auditors corroborated the testimonial evidence by reviewing
       the other organization’s supporting working papers.

   •   Working papers used as support for an open material weakness presented within
       the Statement on Management Controls section did not indicate the source for the
       weakness and did not specifically state what business line reported the weakness.
       Additionally, the auditors did not include a copy of the draft statement of
       assurance described in the narrative of the working papers. All of which were
       needed to support the report statement.

   •   Working papers used as support for prior audit work described within the
       Statement on the Reliability of Computer Processed Data section did not include a
       cross-reference to the project file for the previous audit to demonstrate a link to
       the supporting source information. Further, a copy of the prior audit report
       included as evidence within the working papers did not support the report
       statement as written.

Although none of these deficiencies materially affected the overall conclusions of the
reports, they demonstrate instances where improvements in report referencing and report
review practices would increase the likelihood of preventing and detecting these types of
deficiencies and help maintain the quality of DFAS OIR reports.

Documentation of Project Quality Control. GAS 3.51 requires that audit organizations
prepare appropriate documentation to demonstrate compliance with its quality control
policies and procedures. The DFAS OIR Policy and Procedures Manual requires the
staff to complete and document checklists and other forms to remind staff of
requirements. The manual requires that the team leader complete and the site manager
review a project checklist to ensure that the team complied with GAS and mandatory
OIR procedures before the report is distributed. In addition, it requires that the
independent report referencing reviewer complete a referencing checklist to ensure that
information and conclusions presented in the report are properly supported by the
working papers before the final report is issued. Independent reviewers are to highlight
or mark the report to show statements verified, convey exceptions through coaching
notes for the team to address, and generate a coaching notes report to document the
team’s actions. Site managers are to sign off on the coaching notes report as evidence of
their review.




                                            7
The audit teams for the six projects reviewed generally adhered to the project quality
control procedures established to assure compliance with GAS. However, we noted
instances in which DFAS OIR could strengthen its quality control documentation
practices. Although independent report referencing reviews were done on the six reports
reviewed, three project files did not adequately show that the site manager reviewed this
important process. For example, edit and signoff history for two projects showed that the
team leaders not only addressed the notes from the independent reviewers but also signed
as the reviewer of the referenced reports and the completed referencing checklists. The
third project file did not contain a completed referencing checklist and its edit and signoff
history showed that the team leader both addressed the notes and signed as the reviewer
of the referenced report. That project file also exhibited other shortcomings in quality
control documentation. For example, its project checklist was only partially completed
and it did not contain the final report.

      Recommendations. We recommend that the Director, Defense Finance and
Accounting Service, Office of Internal Review:

       1. include as part of the next internal quality assurance review specific checks for
          compliance with independence documentation requirements and an assessment
          of the adequacy of the report referencing and referencing review process.

       2. implement procedures to maintain summary data of the number of hours that
          staff earn towards the 24-hour continuing professional education requirement.

       3. establish procedures to ensure that records of continuing professional
          education hours earned by staff are accurate; for example, periodically
          distribute summary data to staff for verification against their personal records.

       4. provide appropriate training to enhance the adequacy of the report referencing
          and referencing review process.

       5. re-emphasize to staff through written correspondence the importance of:

          • existing requirements to complete, sign, and document independence
            statements.

          • independence and project quality control documentation that is complete
            and demonstrates appropriate supervisory review.

          • complying with both the 80-hour and 24-hour continuing professional
            education requirements.

          • quality audit and attest documentation that is descriptive, specific, complete,
            and relevant.




                                             8
       6. stress to senior audit management through written correspondence the
          importance of:

          • supporting referencing training for all of their staff.

          • existing requirements to evidence site manager review of the independent
            report referencing review process.

        Management Comments and Reviewer Response. The Director, Internal
Review concurred with all the recommendations and described actions taken or planned
that we consider responsive to the recommendations. He stated that the Office of Internal
Review will assure that the next quality assurance review includes steps to verify
independence documentation and assess the report referencing and referencing review
process. In addition, an all-hands conference will include mandatory training on report
referencing and referencing review and an internal directive will highlight referencing
quality control procedures and other critical elements of compliance with government
auditing standards. The Director, Internal Review also stated that the Office of Internal
Review is developing a project that will provide a central, automated tool for
documenting, summarizing, and monitoring the staff’s completion of continuing
professional education. This project will include specific procedures for categorizing and
tracking training on Government-related topics and subjects as well as procedures
directing managers and staff to update and review records of continuing professional
education. See Appendix E for the full text of the Director’s comments.




                                             9
Appendix B. Summary of Survey Results
            Relating to GAS
We prepared a questionnaire to ascertain the DFAS OIR audit staff’s knowledge of the
GAS and DFAS OIR audit policies and to obtain comments relating to the application of
the standards and policies. We sent questionnaires to 76 audit staff at the six DFAS OIR
sites during the month of February 2006. We received responses from 62 of the 76 audit
personnel (82 percent) during our review.

The survey contained questions on the GAS general standards, field work standards, and
reporting standards. We received mostly positive responses to the 62 questionnaires
received from the DFAS OIR personnel indicating that the audit staff had knowledge of
the standards and audit policies and were following the standards and policies. We
received only a few negative responses and limited comments to the questionnaires that
did not reveal that the auditors had concerns with the organization providing information
about standard and policies and based on experience were satisfied that the standards and
policies were being followed.

There were a total of 30 questions relating to GAS in the questionnaire. We received
1,860 responses (62 personnel multiplied by 30 questions) to these questions of which 15
were negative responses. A summary of the results of the responses received follows.

                                         Number of
                                         Questions    Number of   Number of   No Opinion
                                          for Each     Positive    Negative   or Did Not
                                         Standard     Responses   Responses    Answer
 General Standards
    Independence                             7           390          5          39
    Professional Judgment                    1           57           1           4
    Competence                               1           59           0           3
    Quality Control and Assurance            3           181          0           5
    Criteria (Attestation Engagements)       1           52           0           10
 Field Work Standards
    Planning                                 4           236          1          11
    Internal Controls                        2           119          2           3
    Evidence                                 2           116          1           5
    Supervision                              2           118          1           5
 Reporting Standards
    Reporting                                7           405          4          25




                                                 10
Appendix C. Scope and Methodology
We reviewed the adequacy of DFAS OIR auditors’ compliance with quality policies,
procedures, and standards. We judgmentally selected six reports from a universe of
34 reports issued from October 1, 2004, through September 30, 2005, and tested the
reports and related project documentation for compliance with the DFAS OIR system of
quality control.

In performing our review, we considered the requirements of quality control standards
and other auditing standards contained in the 2003 Revision of the Government Auditing
Standards (GAS) issued by the Comptroller General of the United States. GAS 3.52
states:

       The external peer review should determine whether, during the period under review, the
       reviewed audit organization’s internal quality control system was adequate and whether
       quality control policies and procedures were being complied with to provide the audit
       organization with reasonable assurance of conforming with applicable professional
       standards. Audit organizations should take remedial, corrective actions as needed based
       on the results of the peer review.

We performed this review from October 2005 through August 2006 in accordance with
standards and guidelines established in the April 2005 President’s Council on Integrity
and Efficiency (PCIE) “Guide for Conducting External Peer Reviews of the Audit
Operations of Offices of Inspector General.” In performing this review, we assessed,
reviewed, and evaluated:

       • the adequacy of the design of policies and procedures that the DFAS OIR
         established to provide reasonable assurance of compliance with GAS in the
         conduct of its audits and attestation engagements,

       • staff understanding of quality control policies and procedures,

       • independence documentation and records of continuing professional education
         to verify the measures that enable the identification of independence
         impairments and maintenance of professional competence,

       • six reports and related project documentation to determine whether established
         policies, procedures, and applicable standards were followed, and

       • internal procedures for monitoring, on an ongoing basis, whether the
         DFAS OIR system of quality control is suitably designed and effectively
         applied.

In selecting reports and site offices for review, we established the universe as the reports
presented in the two consecutive DFAS OIR semiannual reports issued prior to the
announcement of this quality control review in October 2005. We focused on reports
issued from the DFAS OIR site offices of Indianapolis, Seaside, and Kansas City, which
were not included in our prior quality control review. We reviewed projects that started




                                                 11
after DFAS OIR initially issued its policy and procedures manual in February 2003.
Additionally, we reviewed a cross section of the types of audit work performed and a
cross section of audit work related to DFAS business lines.

The following table identifies the specific reports reviewed.

                                                                                      Business
   Project Number              Title                     Date             Type
                                                                                         Line
 IN04PAP010IN         “Audit of Army              March 9, 2005        Performance   Military
                      Separation Debt – Round                          Audit         Pay
                      II”
 IN04PAA009DFAS       “Agreed-Upon                March 28, 2005       Agreed Upon   Accounting
                      Procedures Report: Check                         Procedures
                      Issue Discrepancy
                      Transactions”
 KC04PAA011DFAS       “Audit of Prior Period      October 29, 2004     Performance   Accounting
                      Adjustments”                                     Audit
 KC03PAA048DFAS       “Management Letter:         July 7, 2005         Performance   Accounting
 .001                 Improvements Needed in                           Audit
                      DFAS’ Accounting
                      Procedures and Internal
                      Controls for the Defense
                      Agencies Identified
                      During the FY2003 Fund
                      Balance with Treasury
                      Audit”
 SS04SRC001CO         “FY04 Semi-Annual           December 1, 2004     Systems       Commercial
                      Audit of Erroneous                               Review        Pay
                      Contract Payments at
                      DFAS-Columbus
                      (October 2003 – March
                      2004)”
 SS05SRC004CO         “FY05 Semi-Annual           September 30, 2005   Systems       Commercial
                      Audit of Erroneous                               Review        Pay
                      Contract Payments at
                      DFAS-Columbus
                      (October 2004 –
                      September 2005)”


Limitations of Review. Our review would not necessarily disclose all weaknesses in the
system of quality control or all instances of noncompliance with it because we based our
review on selective tests. There are inherent limitations in considering the potential
effectiveness of any quality control system. Departures from GAS can result from
misunderstood instructions, mistakes in judgment, carelessness, or other human errors.
Projecting any evaluation of a quality control system is subject to the risk that one or
more procedures may become inadequate because conditions may change or the degree
of compliance with procedures may deteriorate.




                                                 12
Appendix D. Report Distribution

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Internal Review, Defense Finance and Accounting Service

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                         13
Appendix E. Management Comments




                   15
16
17
